                         UN[TED STATES DEPARTMENT OF EDlJCATIO~
                                          OFFICE OF INSPECTOR GENERAL 

                                    1999 BRYAN STREET, HARWOOD CENTER, SUITE 2630 

                                               DALLAS, TEXAS 75201-6817 

                                         PHONE: (214) 880-3031 FAX: (214) 880-2492 




                                                          MAY I 5 2003
MEMORANDUM

TO 	               Eugene Hickok
                   Acting Assistant Secretary for Elementary and Secondary Education
                                                                     ~.




FROM 	             Sherri L. Demmel             Jj
                                                " '1i~,d. (Jttrilt~
                   Regional Inspector General for Audit

SUBJECT: 	 FINAL AUDIT REPORT
           Kansas Department ofEducation's Compliance with the Priority for Services
           Requirements ofthe Migrant Education Program
                   Control Number ED-OIO/A06-C0032

Attached is our subject report presenting our findings and recommendations resulting from our
audit of the Kansas Department of Education's Migrant Education Program.

In accordance with the Department's Audit Resolution Directive, the Office of Elementary and
Secondary Education has been designated as the action office responsible for the resolution of the
findings and recommendations in this report.

Please refer to the above audit control number in all correspondence relating to this report. If you
have any questions or wish to discuss the contents of this report, please contact me at 214-880­
3031.


Attachment

cc:      Delores Warner, Audit Liaison Officer, OESE




       Our mission is to promote the efficiency, effectiveness. and integrity of the Department's programs and operations
                       L":'\"ITED STATES DEPARTMENT OF EDUCATIO~                                      

                                        OFFICE OF INSPECTOR GENERAL 

                                  1999 BRYAN STREET, HARWOOD CENTER, SUrfE 2630 

                                               DALLAS. TEXAS 75201-6817 

                                       PH01'E: (214) 880-3031 FAX: (214) 880-2492 




                                                      MAY I 5 2003
Dr. John A. Tompkins
Commissioner of Education
Kansas Department of Education
120 South East Tenth A venue
Topeka, KS 66612-1182

Dear Dr. Tompkins:

This Final Audit Report (Control Number ED-OIG/A06-C0032) presents the results of our
audit of the Migrant Education Program at the Kansas Department of Education (Kansas). The
objectives of our audit were to determine whether Kansas and its sub-grantees (1) established
and implemented appropriate procedures to identify and target services to migratory children
who are failing or most at risk of failing to meet state standards and whose education has been
interrupted during the regular school year, and (2) established procedures to report to the
Department the number of "Priority for Service" migratory children in Kansas. Our audit
focused on the period July 1,2000, through July 31, 2002.

A draft of this report was provided to the Kansas Department of Education. In its response,
Kansas concurred with our recommendations. Kansas's comments are summarized in the
section that follows the Recommendations. A copy of the complete response is enclosed with
this report.


                                               BACKGROUND 



The Elementary and Secondary Education Act (ESEA) of 1965, as amended, authorizes federal
funding of programs of education for migratory children. In Fiscal Year 2001, over $371.3
million was authorized for the education of migratory children. Kansas received approximately
$10.9 million in Migrant Education Program funds. A migratory child is a child who is, or
whose parent, spouse, or guardian is, a migratory agricultural worker, including a migratory
dairy worker or a migratory fisher. The No Child Left Behind Act of 2001 and the Improving
America's Schools Act of 1994 further specify that children who are failing, or most at risk of
failing, to meet the State's challenging content standards and challenging student performance
standards, and whose education has been interrupted during the regular school year shaH receive
"Priority for Services." Priority for Services means students who meet both criteria will receive
Migrant Education Program funded services before services are provided to other migratory
children.




     Our mission is to promote the efficiency. effectiveness. and integrity of the Department's programs and operations
Dr. John A. Tompkins, Commissioner                                                      Page 2 of 6


Guidance from the Department provides that if “the state does not have assessment data on a
particular migrant child (e.g., the child was not present in the district when the assessment was
administered), then the state might use other relevant information, like the degree to which the
child is subject to multiple risk factors (e.g., being overage or behind grade level, eligible for
free/reduced price lunch, limited English proficient) to determine the child’s need for services.”
The Department also establishes that “the state, in collaboration with local operating agencies, is
free to determine what constitutes ‘educational interruption’ under Section 1304 (d).”

Section 1306 of the ESEA, as added by the Improving America’s Schools Act of 1994, requires
each State and local operating agency to identify and address the special educational needs of
migratory children in accordance with a comprehensive State needs assessment plan.

Table C-6 of the Consolidated State Performance Report, which is submitted to the Department’s
Office of Migrant Education for every award year, requires that States indicate the “count of
students served who have a priority for services under Section 1304 (d) of the ESEA (those
whose schooling has been interrupted and who are failing or [most] at risk of failing to meet state
standards.)”

On November 26, 2002, the Department issued final regulations for No Child Left Behind Act of
2001 governing the Migrant Education Program to, among other changes, require that each State
Education Agency determine the effectiveness of its program, particularly for those students who
have Priority for Services. These regulations are in response to The President’s Management
Agenda for Fiscal Year 2002 and the Department of Education’s Blueprint For Management
Excellence released October 30, 2001. One of the expected long-term results in The President’s
Management Agenda is better control over resources used and accountability for results by
program managers. The Department’s Blueprint describes one of the Department’s
commitments to management improvement as achieving an “Accountability for Results” culture.
Through the Blueprint, the recipients of Department funds will be held responsible for their
performance in relation to the goals and objectives.


                                      AUDIT RESULTS


Kansas did not comply with Section 1304(d) of the Elementary and Secondary Education Act of
1965, as amended. Specifically, Kansas did not establish and implement appropriate procedures
to identify and target Priority for Services to migratory children who are failing, or most at risk
of failing, to meet State standards, and whose education was interrupted during the regular
school year. As a result, the U.S. Department of Education has no assurance that Kansas used
the $10.9 million in Migrant Education Program funds it received for Fiscal Year 2001 for
Priority for Services migratory children before providing services to other migratory children;
and Kansas was unable to report the correct number of Priority for Services migratory children
served in the Consolidated State Performance Report to the Department’s Office of Migrant
Education.
Dr. John A. Tompkins, Commissioner 	                                                      Page 3 of 6


Kansas’s migrant education funding allocation procedures to its sub-grantees were not based on
identified Priority for Services migratory children to be served. Kansas provided migrant
education funds to the sub-grantees by reviewing various funding factors from the annual needs
assessment and student information from the State database. Only two of the eight funding
factors used by Kansas related to Priority for Services criteria. Those two factors were: 1) a
qualifying move in the last year and 2) low-test scores. However, the Kansas Coordinator for
State and Federal Programs stated that low-test scores were rarely used as a deciding factor.

Kansas also overstated the number of Priority for Services migratory children served in the
Fiscal Year 2001 Consolidated State Performance Report. Kansas reported to the Department
that there were 5,130 Priority for Services students. We determined that the number was
obtained from the State’s MIS2000 system and represented the recently mobile students without
identifying which of these students also met the at risk of failing criteria.

We visited three sub-grantees and found that none of the three were properly identifying and
targeting migratory children for Priority for Services. Instead of focusing services on migratory
children with low test scores and a qualifying move, all three sub-grantees delivered services to
children with limited English skills. One sub-grantee delivered services to migratory children
who were also English-as-a-Second Language (ESL) students. The second sub-grantee
prioritized services to migratory children who were new to the district or had a limited English
proficiency. The last sub-grantee considered all ESL students to be at risk of failing regardless
of whether the student’s education had been interrupted during the regular school year. The
three sub-grantees visited received nearly $2.3 million for migrant education.

We concluded that these conditions occurred because Kansas (1) relied upon its sub-grantees’
assurances that they were providing services to Priority for Services children first before other
migratory children, and did not perform independent monitoring of the sub-grantees to ensure
services were provided; (2) did not provide clear guidance to the sub-grantees as to the definition
of “at risk of failing” State standards and “whose education has been interrupted during the
regular school year”; and (3) did not require the schools, school districts, or sub-grantees to
report the number of Priority for Services migratory students for 2000 and 2001.


                                   RECOMMENDATIONS


We recommend that the Assistant Secretary for the Office of Elementary and Secondary
Education require Kansas to:

1.1 	 Monitor sub-grantees to ensure funds are used for Priority for Services migratory children
      before funds are used for other migratory children.

1.2 	 Provide a clear definition to all sub-grantees of what constitutes “at risk of failing” State
      standards and “whose education has been interrupted during the regular school year.”
Dr. John A. Tompkins, Commissioner 	                                                  Page 4 of 6


1.3 	 Establish procedures to identify and report to the Department the number of Priority for
      Services migratory children served in Kansas schools.


                   KANSAS COMMENTS TO THE DRAFT REPORT


Kansas officials indicated that they agreed with our findings and recommendations. They stated
that they (1) are revising the Local Consolidated Plan onsite monitoring instrument to include
specific review of documentation of appropriate use of migrant funds for the Priority for Services
migratory children; (2) have defined what constitutes “at risk of failing” State standards and
“whose education has been interrupted during the regular school year”; and (3) are implementing
procedures to identify and collect the number of Priority for Service migratory students served in
Kansas’s schools.


                     OBJECTIVE, SCOPE, AND METHODOLOGY


The objectives of our audit were to determine whether Kansas and its sub-grantees (1)
established and implemented appropriate procedures to identify and target services to migratory
children who are failing or most at risk of failing to meet state standards and whose education
has been interrupted during the regular school year, and (2) established procedures to report to
the Department the number of Priority for Services migratory children in Kansas.

To accomplish our objectives, we:

          Reviewed Kansas’s and its sub-grantees’ policies and procedures for providing
           services to migratory children.
          Interviewed Kansas and sub-grantee officials regarding their procedures for providing
           Priority for Services to migratory children.
          Reviewed the Kansas State Single Audit Report for 2001 and other reviews
           performed.
          Reviewed applicable laws, regulations, and other guidance.
          Reviewed the sub-grantees’ documentation regarding the Priority for Services
           provided to migratory children.
          Reviewed Kansas’s and the sub-grantees’ decision-making process for allocating
           migrant education funds.
We obtained computer-processed data from Kansas that we used for background information and
to select the two sub-grantees that received the largest migrant funding allocations. Because we
did not use the data for projection or to make any determinations, we did not perform reliability
assessments on the data.
Dr. John A. Tompkins, Commissioner                                                     Page 5 of 6


Our audit of Kansas’s Migrant Education Program covered the period July 1, 2000, through July
31, 2002. We performed onsite fieldwork from August 20-22, 2002, at the State offices in
Topeka, and at three sub-grantees from August 23-28, 2002. We selected two of the largest sub-
grantees in Kansas at the request of the Office of Migrant Education. We also selected one other
sub-grantee at our discretion. The sub-grantees visited were Topeka Public Schools, Dodge City
Public Schools, and Wichita Public Schools. We discussed our audit results with Kansas
officials on August 22, 2002. We held an exit conference with Kansas officials on November 6,
2002. Our work was performed in accordance with generally accepted government auditing
standards appropriate to the scope of the audit described above.


                   STATEMENT ON MANAGEMENT CONTROLS

As part of our review, we assessed the system of management controls, policies, procedures, and
practices applicable to Kansas’s administration of the Priority for Services portion of the Migrant
Education Program. Our assessment was performed to determine whether Kansas had
management controls established to ensure Priority for Services migratory children received
services before services were provided to other migratory children.

Because of inherent limitations, a study and evaluation made for the limited purpose described
above would not necessarily disclose all material weaknesses in the management controls.
However, our assessment disclosed that Kansas had neither developed and implemented
procedures nor established a monitoring system for sub-grantees to identify, target, and count
migratory children to be served first through the Migrant Education Program. As a result, we
concluded that Kansas did not have sufficient management controls to ensure that sub-grantees
complied with the requirements of Section 1304(d) of the Elementary and Secondary Education
Act of 1965, as amended. The AUDIT RESULTS section of the report provides details on our
finding.


                             ADMINISTRATIVE MATTERS


If you have any additional comments or information that you believe may have a bearing on the
resolution of this audit, you should send them directly to the following U.S. Department of
Education official, who will consider them before taking final Departmental action on the audit:

                      Eugene Hickok, Acting Assistant Secretary
                      U.S. Department of Education
                      Office of Elementary and Secondary Education
                      400 Maryland Avenue, SW
                      Room 3W315, FB6 Building
                      Washington, D.C. 20202
Dr. John A. Tompkins, Commissioner                                                      Page 60f6


Office of Management and Budget Circular A-50 directs Federal agencies to expedite the
resolution of audits by initiating timely action on the findings and recommendations contained
therein. Therefore, we request receipt of your comments within 30 days.

In accordance with the Freedom of Information Act (5 U.S.c. §552), reports issued by the Office
of Inspector General are available, if requested, to members of the press and general public to the
extent information contained therein is not subject to the exemptions in the Act.

If you have any questions or wish to discuss the contents of this report, please contact me at 214­
880-3031. Please refer to the control number in all correspondence related to this report.

                                                     Sincerely,


                                                      :1v;vr O?IJ
                                                      /
                                                     Sherri L. Demmel
                                                     Regional Inspector General
                                                      for Audit


Attachment
                                                                                                      Attachment


~HSDE
                                        Kansas State Department of Education
                                        120 S.E. 10th Avenue
                                        Topeka, Kansas 66612-1182




           May 1,2003

           Ms. Sherri L. Demmc1
           Regional Inspector General for Audit
           U. S. Department of Education
           Office ofInspector General
           1999 Bryan Street, Suite 2630
           Dallas, Texas 75201-6817


            Dear Ms. Demmel:

           Attached is the response of the Kansas State Department of Education to the Draft Audit
           Report (Control ~umber ED-OTG/A06-C(032). We understand that our response may
           be included in the final audit report which is submitted to the Assistant Secretary for the
           Office of Elementary and Secondary Education.

           Should you have any questions or concems, please contact me via phone at 785-296-5081
           or email at .8JdiLn((lJ;:sdClilli!,. Thank you for providing us with an opportunity to respond
           to the draft report.

           Sincerely,
             ,/-)            ,/ 

             ~/ ~   <--'-   6'--<-· 


           Judi Miller
           Coordinator


           encl.




State & Federal Programs
785-296-2306 (phone)
785-296-5867 (fax)
785-296-6338 (TTY)
www.ksde.org
                                                                                           Attachment



                          Kansas State Department of Education 


                        Response to Office of Inspector General's 

                Draft Audit Report (Control Number ED-OIG!A06-C0032) 

                         Regarding Migrant Education Program 



Audit Results

The Draft Audit Report of the Office of the Inspector General states that Kansas did not
comp~v with Section 1304(d) ofthe Elementary and Secondary Education Act of1965, as
amended. Specifically, Kansas did not establish and implement appropriate procedures
to ident~ry and target Priority for Services to migratOl), children who are jailing, or most
at risk a/failing, to meet State standards, and . . ."flOse education was interrupted during
the regular school year.

Audit Recommenda60ns

The Audit Report includes three recommendations as the course of action to ensure
compliance with the statute. These recommendations are:

1.1 	   Monitor sub-grantees to ensure funds are used for Priority for Services migratory
        children before funds are used for other migratory children.

1.2 	   Provide a clear definition to all sub-grantees of what constitutes "at risk of
        failing" State standards and "whose education has been interrupted during the
        regular school year."

1.3 	   Establish procedures to identify and report to the Department the number of
        Priority for Services migratory children served in Kansas' schools.


Kansas Response

The Kansas State Department of Education (KSDE) intends to fully comply with the
statute and implement the recommendations submitted by the Office of the Inspector
General. Following are the specific actions and procedures that address each
recommendation:

1.1
Monitoring to ensure that sub-grantee funds are used first for Priority of Services
migratory children will occur in two ways.
                                                                                             Attachment


Onsite Monitoring:
• 	 The Kansas State Department of Education is revising the Local Consolidated Plan
    onsite monitoring instrument to include specific review of documentation of
    appropriate use of migrant funds for the Priority for Services migratory children.
        o 	 Sub-grantees will provide documentation verifying which students are both at­
            risk and have an intenuption in education.
        o 	 Lists of students receiving migrant services will be compared against the list
            of Priority Service migratory students to ensure that these students are
            receiving migrant services. Rationale must be provided for any Priority
            Service migratory students not receiving services.

• 	 An onsite monitoring report is written within 30 days of the visit. The report will
    include any findings and recommendations. Sub-,grantees have 30 days following
    receipt of the report to respond. Funds may be held until issues are resolved should a
    sub-grantee be out of compliance concerning serving Priority for Services migratory
    chi ldren and failing to respond to the report.

• 	 Results from the onsite monitoring visits will be reviewed prior to the Kansas State
    Department of Education allocating Migrant Education funds in the future.

• 	 Districts with Migrant Education Programs are given priority status when KSDE staff
    are determining which districts in Kansas to monitor on site.


Desktop Monitoring:
• 	 Sub-grantees report in the Local Consolidated Plan Annual Report data on
    participating students. The report is being revised to include the number of migrant
    students served who are identified as Priority Service migratory students and those
    who are not Priority Service students.

• 	 Data in the Annual Report is analyzed by the Kansas State Department of Education
    to ensure that funds are targeting the Priority Services migratory students.

• 	 Data in the Annual Report is also verified by cross checking with the Kansas Migrant
    Student Network, which is the migrant student record database system and reviewing
    the Certificates of Eligibility (COE) submitted by the district.

• 	 State assessment results are also reviewed to verify students identified as "at risk."

• 	 The Kansas Migrant Student Network (KMSN) database is monitored by KSDE to
    ensure that complete information for each migrant student is entered. Special
    attention is given to the data elements on "at risk" and "interruption of education."
                                                                                               Attachment


1.2
The Kansas State Department of Education convened a committee of sub-grantees whose
charge was to assist in defining what constitutes "at risk of failing" State standards and
'\vhose education has been interrupted during the regular school year."

At-Risk of Failing to Meet State Standards
As a result of the committee's work, any migrant student \vho meets any of the following
criteria is considered to be "at risk of failing:"

• 	 Student scores in either the basic or unsatisfactory performance levels on any of the
    State assessments: reading, writing, mathematics, social studies or science.

• 	 Student is classified as either non-English proficient or limited English proficient
    according to the results of an English Language Proficiency assessment.

                                                   nd
• 	 Student is not at grade level based on the 2        grade diagnostic reading assessment.

• 	 Student is behind in accruing credits toward graduation requirements.

• 	 Student is placed in a class that is not age appropriate (i.e. 15t grade placement, 8
    years old).

• 	 Student has repeated a grade level or a course.

• 	 Student is not attending school regularly (according to district policy).

• 	 Student is identified as a student with disabilities.

Education Has Been Interrupted During the Regular School Year:
Any migrant student who meets one of the following is considered to have his or her
education interrupted:

• 	 :Y{igrant students who move within the regular school year from one school to another
    within a district.

• 	 Migrant students who move across district boundaries within the school year. These
    students would have a new Qualifying Arrival Date (QAD).

• 	 Migrant students who do not officially withdraw from a school but are absent for nvo
    or more weeks and then return.

• 	 Migrant students who do officially withdraw, are gone for at least two weeks and then
    re-enroll.
                                                                                        Attachment


1.3
The Kansas State Department of Education is implementing the following procedures to
identify and collect the number of Priority of Services migratory children served in
Kansas' schools:

• 	 Sub-grantees are notified of the requirements for identifying and serving Priority of
    Services migratory children and new reporting requirements via letter, Iistserv,
    Migrant Directors' meetings and ESOLlMigrant Annual Conference.

• 	 The web-based data collection instrument used for the transfer of migrant student
    records is modified to include all of the "at-risk criteria" and the "education has been
    interrupted" information.

•	    ~igrant program directors and data collection clerks are notified of changes in the
      Kansas Migrant Student Network and requirement to report that data on each migrant
      student.

• 	 Through the needs assessment process, districts will determine numbers of Priority
    Service migratory students and what services are necessary to meet their needs. The
    results of the needs assessment are reported to KSDE.

• 	 Sub-grantees report in the Local Consolidated Plan Annual Report data on
    participating students. The report is being revised to include the number of migrant
    students served who are identified as Priority Service migratory students and those
    who are not Priority Service students.
                         REPORT DISTRIBUTION LIST 

                        CONTROL NO. ED-OIG/A06-C0032 


Auditee                                             ED Action Official

Dr. John A. Tompkins                                Acting Assistant Secretary
Commissioner of Education                           Office of Elementary and
Kansas Department of Education                      Secondary Education
120 South East Tenth Avenue
Topeka, Kansas 66612-1182


                            Other ED Officials/Staff (electronic copy)

Delores Warner
Audit Liaison Officer
                                                    Jack Martin
Philip H. Rosenfelt                                 Chief Financial Officer
Office of General Counsel
                                                    Clay Boothby, Acting DAS
William D. Hansen                                   Legislation and Congressional Affairs
Deputy Secretary
                                                    Laurie M. Rich, AS
John Danielson                                      Intergovernmental and Interagency Affairs
Chief of Staff
                                                    Michelle Douglas and Carolyn Adams
Eugene Hickok                                       OGC (Correspondence Control)
Under Secretary
                                                    L’Wanda Rosemond
John Gibbons                                        General Operations Team, OIG
Director, Communications
                                                    Charles Miller
                                                    Post Audit Group, OCFO

                                                    Headquarters and Regional Audit and
                                                    Investigation Managers
